APPLICATION AND
SOLICITATION
DISCLOSURE
VISA PLATINUM/VISA PLATINUM REWARDS

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Visa Platinum

2.99%

Introductory APR for a period of six billing cycles.

7.90% , 8.90%, 10.90%,
13.90% or 15.90%, based on your creditworthiness.

After that, your APR will be

Visa Platinum Rewards

2.99%

Introductory APR for a period of six billing cycles.

9.90% , 10.90%, 12.90%,
15.90% or 17.90%, based on your creditworthiness.

After that, your APR will be

APR for Balance Transfers

Visa Platinum
2.99% Introductory APR for a period of six billing cycles.
After that, your APR will be 7.90% ,
based on your creditworthiness.

8.90%, 10.90%, 13.90% or 15.90%,

Visa Platinum Rewards
2.99% Introductory APR for a period of six billing cycles.

APR for Cash Advances

After that, your APR will be 9.90% , 10.90%, 12.90%, 15.90% or 17.90%,
based on your creditworthiness.
Visa Platinum
2.99% Introductory APR for a period of six billing cycles.
After that, your APR will be 7.90% ,
based on your creditworthiness.

8.90%, 10.90%, 13.90% or 15.90%,

Visa Platinum Rewards
2.99% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.90% , 10.90%, 12.90%, 15.90% or 17.90%,
based on your creditworthiness.
How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee
- Annual Fee

None
SEE NEXT PAGE for more important information about your account.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04213945-MXC10-P-1-033017 (MXC101-E)

Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

1.00% of each transaction in U.S. dollars
None
None
Up to $26.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (excluding new purchases and balance transfers) (including new cash
advances)."
Promotional Period for Introductory APR:
The Introductory APR for purchases, balance transfers and cash advances will apply to transactions posted to your
account during the first six months following the opening of your account.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 20, 2017
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
Missouri Fee Notice:
Credit card fees are governed by §408.140 of the Missouri Revised Statutes, unless we charge fees as permitted by
applicable federal law.
For California Borrowers, the Visa Platinum and Visa Platinum Rewards are secured credit cards. Credit extended
under this credit card account is secured by various personal property and money including, but not limited to:
(a) any goods you purchase with this account, (b) any shares you specifically pledge as collateral for this
account on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit
Union excluding shares in an Individual Retirement Account or in any other account that would lose special tax
treatment under state or federal law, and (d) collateral securing other loans you have with the Credit Union
excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when
you are a covered borrower under the Military Lending Act your credit card will be secured by any specific
Pledge of Shares you grant us but will not be secured by all shares you have in any individual or joint account
with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card
account when you are not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
The following fees do not apply to borrowers in the State of Missouri: Account Set-up Fee, Program Fee, Participation
Fee, Additional Card Fee, Application Fee, Balance Transfer Fee, Transaction Fee for Purchases, Foreign Transaction
Fee, Over-the-Credit Limit Fee, Statement Copy Fee, Document Copy Fee, Rush Fee, Emergency Card Replacement
Fee, PIN Replacement Fee, Card Replacement Fee, Unreturned Card Fee, and Pay-by-Phone Fee.
Returned Payment Fee:
$26.00 or the amount of the required minimum payment, whichever is less.
Pay-by-Phone Fee:
$5.00.
Rush Fee:
$42.00.
Statement Copy Fee:
$2.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

04213945-MXC10-P-1-033017 (MXC101-E)

